                                                      NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF lNVESTIGA TIONS

                                             j   CLOSEOUT MEMORANDUM

 Case Number: AI0020013                                                                       Page 10ft



                 We identified a significant amount of apparently plagiarized text in a NSF proposal l
                           2          3
         submitted by a PI and CoPI from the same university.4 During our inquiry we learned that a third
                                    5
         university faculty member had prepared a substantial portion of the proposal including the alleged
         plagiarism. The faculty member did not appear named as an author of the proposal. We referred the
         matter to the university, which completed an investigation finding that the third faculty member had
         committed research misconduct.

          ,   The attached report of investigation and NSF's Notice of Research Misconduct Finding
         summarize the details of our investigation.

                   Accordingly this case is closed.




NSF DIG Fonn 2 (1lI02)
CONFIDENTL\L
                                                  CONFIDENTIAL




     N ational Science Foundation
                     'i




      Office of Inspector General




                     Confidential
                          !)      ,




                Report of Investigation
               Case Number A-10020013
                               7 July 2011




                                             NSF OIG Form 22b (12/10)
CONFIDENTIAL                                                             CONFIDENTIAL

                                       Executive Summary
Allegation:             Plagiarisml in an NSF proposal.

OIG Inquiry:        We contacted a PI (Subject 1) and copt (Subject 2) about 123 lines of
                    apparentlyilcopied text with embedded references and 1 copied figure. They
                    indicated that a research assistant professor named as senior personnel in the
                    budget, but not named as an author, drafted the proposal. We contacted the
                    research as'kistant professor (Subject 3) about 60 lines of the apparently
                    copied text, because the remaining 63 of the lines appeared to come from his
                    pUblications. We referred the matter to the University for inv(~stigation.
                                  !
University          , The University conducted an investigation, finding:
Investigation and        • Subject 1 and Subject 2 did not commit research misconduct; and
Action:                  • Subject 3 committed research misconduct by recklessly plagiarizing
                            in the proposal.
                      The University has required Subject 3 to:
                                 •
                          • complete the University responsible conduct of research program
                             with encouragement to seek additional training afterward; and
                         • subinit all written papers and proposals for a period of two years to
                             his supervisor for review and certify that none of the material in
                            those papers and proposals is copied.

OIG's Assessment:   The evidence did not support a finding of research misconduct for Subject 1
                    and Subject 2. The evidence does support a finding with respect to
                    Subject 3.
                     • The Act: The research assistant professor plagiarized 69 lines of text
                        with 4 embedded references and 1 figure from 5 published articles.
                     • Significant Departure: The act was a significant departure from
                        accepted practices.
                     • Intent: The research assistant professor acted recklessly.
                     • StandaYrd of Proof: The preponderance of the evidence supports
                        finding the research assistant professor recklessly plagiarized from
                        publishrd articles.

OIG                 •     Send Subject 3 a letter of reprimand;
Recommendation:     •     Require ,~ubject 3 to certify completion of research ethics training within
                          1 year of the finding of research misconduct;
                    •     For 2 years, require Subject 3 to certify each time he submits to NSF that
                          the submission does not contain research misconduct;
                    •     For 2 ye~rs, require Subject 3 to submit assurances by a responsible
                          official of his employer that each of his submissions to NSF does not
                          contain ~esearch misconduct; a n d ·                                   .
                    •     For 2 years, bar Subject 3 from serving as an NSF reviewer,. advisor, or
                          consultant.
    CONFIDENTIAL                                                          CONFIDENTIAL

                                          OIG's Inquiry
                                  ,; I
        We reviewed the Proposal in response to concerns about apparently unattributed copied
text from published articles. In total, we identified 123 lines of apparentl~ copied text with 17
embedded references and 1 figure from 6 sources (Sources A through F). Approximately 63
lines of the allegedly copied mate'rial appeared to come from Source A, 3 whose first author
appeared in the Proposal budget as senior personnel as a research assistant professor and whose
biographical sketch was included in the Proposal. However, there appeared to be insufficient
evidence to indicate that the Sourye A author was, in fact, a contributing author on the Proposal
as required by the NSF Grant Proposal Guide (GPG).4

         We contacted the PI (Subject 1)5and the coPI (Subject 2)6 for their perspective on the
apparently copied materiaL? BotH identified the Source A first author (Subject 3)8 as the
"primary author" of the Proposal. 9 Subject 1 and Subject 2 each asserted that Subject 3's·
inclusion as senior personnel sufficiently attributed authorship of the Proposal (either whole or in
part) to Subject 3, who Subject 1 Gharacterized as a "soft-money" faculty member. 10 Both also
pointed out the inclusion of Subjeh 3' s biographical sketch in the Proposal as indicative of
authorship. II Both said they had discussed the allegation with Subject 3 and his supervisor in
another unit of the University wh~re Subject 3 is employed before submitting their responses to
    I2
us. This discussion appears to have taken place outside of the research misconduct procedures
at the University. 13

        We contacted Subject 3 wi~ respect to th~ material apparently copied from Sources A
through F. 14 He replied that he was the primary author of the Pr~osal15 and identified an -
additional source (Source G) from which he also copied 6 lines. I He indicated that the material
we identified as coming from Sou~ce D actually came from Source E and that he believed he had
provided appropriate citations. I? i

       Despite Subject 3's admission that he was theprimary author of the Proposal, none of the
subjects' responses adequately adqressed the Proposal's submission by Subject 1 and Subject 2




3   Tab 15.A.
4   NSF GPG Section LD.3.
5




9
                            .,      ~

10 Tab 9 at 000124, 000127 and 000135 ..
11 Tab 9 at 000127 and 000135.
12 The University_center. See Tab 9 at 000124-000125 and 000133-000134.
13 See Tab 5, The UmverSIty Policy.
14 Tab 7 at 000078-000080.
15 Tab 9 at 000136.
16 Tab 9 at 000140-{)00141.
17 Tab 9 at 000137.




                                                                                                  2
  CONFIDENTIAL                                                               CONFIDENTIAL

 as the explicitly identified authors. Therefore, we found sufficient substance to refer an
 investigation to the University to address: 1) whether Subject 1 and Subject 2 committed .
 plagiarism by failing to identify e{{plicitly the actual author of the proposal; and 2) whether
 Subject 3 committed plagiarism with respect to the text copied from Sources B, C, E, F, and G.

                                        The University's Investigation 18

         The University appointed an ad hoc committee (the Committee)19 to investigate the
 allegations. In addition to the annotated Proposal, annotated sources, and copies of our
 correspondence with the subjects,Jhe Committee considered its interviews with each of the three
 subjects and Subject 3 's supervisqr at the unit of the University where Subject 3 is employed, 20
 during which they received supplementary materials. The Committee also interviewed
 administrative staff with respect to relevant University policies and members of the University
 research community to assess proposal writing practices with respect to identifying authors other
 than PIs and CoPls in NSF proposals. The Committee addressed its findings separatc~ly with
 respect to each of the subjects.

         Subject 1      The Committee found that Subject 1 did not commit plagiarism. 21 The
 Committee based this conclusion ~n: the free exchange of information between Subject 1 and
 Subject 3 with the mutual intent to submit a proposal to NSF and therefore no "appropriation" of
 Subject 3's words by Subject 1; no intent on Subject l's part to withhold appropriate credit from
 Subject 3; Subject 1's statement that he would have included Subject 3 as a PI/CoPI if Subject 3
 had agreed; and Subject l's lack or awareness of the GPG instruction to identify authors other
 than the PI/CoPI.

         Subject 2      The Committee found that Subject 2 "did not participate in the actual
 writing of any of the NSF Proposal!, did not have an opportunity to review or sign-off on the NSF
 Proposal's submission [as required by University policy], and did not know the NSF Proposal
 had been submitted.,,22 Subject 3's testimony to the Committee also confirmed that Subject 2
                                                             23
 was not involved in writing those ~ections of the Proposal.

           Subject 3      The Committee found by a preponderance of the evidence that Subject 3
  "committed plagiarism by recklessly copying text from other sources without proper indication
  that the text was taken verbatim.,,24 The Committee found Subject 3's plagiarism to be a
  significant departure from accepted practices and concluded "he knew he was copying someone
. else's material word-for-word.,,25 In its consideration of mitigating factors, the Committee noted
  a deficiency in Subject 3's training since coming to the United States for his postdoctoral work,
  noting that Subject 3 had received no responsible conduct of research training at his previous
  institutions nor had he received su~h training at the University.26 However, the Committee
  contrasted the lack of training with Subject 3's expressed belief at the time that proposals do not

 18   The University's Investigation Report and Appendixes (Tab I-Tab 14).
 19   Curricula vitae available on           !


 22   Tab 2 at 000010.
 23   Tab Tab 12 at 000169.
 CONFIDENTIAL                                                                          CONFIDENTIAL

require the same "higher standard" of preparation as journal articles. 27 The Committee also
found that Subject 3' s "failure to use quotation marks around copied text but proper attribution
of the source material place [sic] immediately adjacent to the copied text to be an important
mitigating circumstance" and indicative of an absence of de~eptive intent. 28 The Committee also
noted that the Proposal was Subject 3' s first proposal for federal funding. 29 Thus, the Committee
concluded that Subject 3' s plagiarism was reckless.

                 The Subjects' Responses to the University's Draft Investigation Report

        The three subjects each had the opportunity to provide comments to the Committee's
draft report. Subject 1, Subject 2 and Subject 3 each responded with typogra~hical corrections
and clarifications of fact that resulted in no substantive changes to the report. 0

                                            The University's Actions

        The Deciding Official 31 accepted in full the Committee's findings and recommended
actions: 32

             •    Neither Subject 1 npr Subject 2 committed research misconduct;
             •    Subject 3 "did commit plagiarism by recklessly copying text from other sources
                  without proper indication that the text was taken verbatim;"
             •    Subject 3 is required f~ars to submit all of his written papers and proposal
                  to his supervisor in,th~ school for review and certify that none of the text
                  was plagiarized; anti                                     '
             •    Subject 3 is required to certify his completion ofthe Fall 2011 responsible
                  conduct of research course at the University.

                                   OIG~s    Investigation and Assessment

        We found the University investigation to be accurate, complete and in accord with
reasonable procedures. We concur with the Committee that a Subject l's actions do not warrant
a finding of research misconduct. We concur with the Committee that there is insufficient
evidence to support any wrongdoi1(g on the part of Subject 2, particularly given his lack of
knowledge of the submission of the ProposaL                                      ,


24 Tab 2 at 000011.
25 Tab 2 at 000011.
26 Tab 2 at 000007, 00001 I. Both Subject 3' s undergraduate and graduate degrees are from the same institution
outside the United States, followed by 5 years of postdoctoral work at three prominent U.S. research institutions
before his current appointment at the University. In fact, in a separate communication following a review of its
internal procedures, the University identified a gap in coverage in its own policy that required postdoctoral
associates to take such training but not assistant research faculty.
27 Tab 2 at 000011.
28 Tab 2 at 00001 L
29 Tab 2 at 000006.
30 Tab 14.
31
32




                                                                                                                    4
 CONFIDENTIAL                                                                          CONFIDENTIAL



          In summary, the alleged copying allocated to Subject 3 is:

                                      Lines            Embedded
                Source 33            of Text           References            Figures
                   B                    33                  1
                   C                     5
                   E                    19                                       1
                   F                     3                   1
                   G                   ;6                    2
               TOTAL
                         j4
                                        '66                  3 .                 1



         A finding of misconduct requires that: (1) there be a significant departure from accepted
 practices of the relevant research community, (2) the research misconduct be committed
 intentionally, or knowingly, or recklessly, and (3) the allegation be proven by a preponderance of
 the evidence. 35                   .,

                                                       The Act

          We concur with the University that Subject 3's actions with respect to copying material
  from Sources B, C, E (including the material in common with D), F, and G constitute plagiarism.
  We also agree with the Committe.e's finding that for Sources B, C, E, and F: 1) the source
  document appears in the Proposal reference list; 2) a citation appears in the Proposal text in the
  general vicinity ofthe copied material; and 3) there are no quotation marks or other means of
  offsetting the copied text. The Committee found the inclusion of the citation to the source
  "immediately adjacent to the copied textto be an important mitigating circumstance." However,
  Subject 3's placement of the citations 'suggests an effort on his part to attribute the source of the
  ideas but fails to address the source ofthe copied words (i.e., the expression ofthose ideas).36
  Thus, we find that Subject 3's actions with respect to copying material from the identified
  sources into the Proposal satisfy the definition of plagiarism and are a significant departure from
. the accepted practices of the relevant research corrimunity. .



         We concur with the Committee that Subject 3 had a requisite level of intent (i.e., at least
 reckless) for a finding of research 1m isconduct. Thus, we conclude that Subject 3 had sufficient
 intent for a rmding of research misconduct.



 33 Subject 3 is an author on Source A; therefore, his reuse of that text does not meet the NSF definition of
 plagiarism.
 34 The lines identified in Source D also appear in Source E and are therefore only counted once.
 35
    45 C.F.R. 689.2(c).
 36 45 C.F.R 689.1(a)(3), specifically the copying of "another person's ideas, processes, results,.2! words" [emphasis
 added].


                                                                                                                    5
,   .
         CONFIDENTIAL                                                                          CONFIDENTIAL



                                                        Standard o(Proo(

                The preponderance of the evidence supports a finding that Subject 3 plagiarized 66line~
        oftext from 5 sources (B, C, E, F, and G), including 1 figure and 4 embedded references, with at
        least reckless intent.

                 Based upon t~is evidence, we conclude Subject 3 committed research misconduct.

                                             OIG's Recommended Disposition

               When deciding what appropriate action to take upon a finding of misconduct, NSF must
        consider:
                     (1) How serious the misconduct was; (2) The degree to which the
                     misconduct was knowing, intentional, or reckless; (3) Whether it
                     was an isolated event or part of a pattern; (4) Whether it had a
                     significant impact on the research record, research subjects, other
                     researchers, institutions or the public welfare; and (5) Other
                     relevant circumstances. 37

                                                           Seriousness

                Subject 3 's actions are of a moderate severity. The Proposal was Subject 3's first attempt
        at obtaining an NSF award and the copied material appeared as a part of his assessment of the
        relevant literature. The material he copied from Sources B, C, E, F, and G are in large part the
        methodology for the proposed work, albeit the actual work to be done was to further the body of
        knowledge represented in the source documents. llltimately, NSF declined the Proposal
        minimizing direct harm to the government.

                                                         Degree ofIntent

                Subject 3' s degree of intent reasonably lies between reckless and knowing. As the
        Committee noted, he knew he was copying t'ext from the sources into the Proposal. Although
        Subject 3 received his academic training outside the U.S., he received substantial postdoctoral
        training at prominent U.S. institutions 38 and published as first author, with numerous coauthors,
        in prominent English language journals. The absence of detectable plagiarism in the articles the
        Committee examined,39 taken in consideration with his expressed belief at the time that journals
        required a "higher standard" than the Proposal he was submitting, suggests an egregiously
        reckless disregard of the standardsfoofproper scholarship. NSF's expectations for proposals are
        enunciated in the GPG which calls for "strict adherence to the rules of proper scholarship and



        37 45 C.F.R 689.3(b).
        38 This training included a writing course at one ofthose institutions, although Subject 3 told the Committee he did
        not recall receiving instruction in using quotations for copied text. See Tab 2 at 000006. See also Subject 3's
        biographical sketch, Tab 3 at 000041-000042.
        39 Tab 2 at 000011.          .


                                                                                                                               6
.'


     CONFIDENTIAL                                                                             CONFIDENTIAL

     attribution:' We conclude he was reckless in not adhering to the rules of proper scholarship.4o

                                                     Pattern of Behavior
                                                                                                                                l
            There is no evidence to suggest that Subject 3' s plagiarism was part of a pattern of
     conduct.

                                              Impact on the Research Record

              There is no evidence to support finding an impact on the research record.

                                                         Recommendations

              Based on the evidence, OIG recommends that NSF:
                                                     ,
          •   Send Subject 3 a letter of reprimand infonning him that NSF has made a finding of research
              misconduct; 4 1 ,
          •   Require Subject 3 to certity to the Assistant Inspector General for Investigations (AlGI)
              completion of research ethics training, including the proper attribution and presentation of
              quoted and paraphrased material, within 1 year of the finding of research misconduct;42
          •   For 2 years, require Subject) to certity to the AlGI each time he submits a proposal or report
              to NSF that the proposal or report does not contain plagiarized, fabricated, or falsified
              material·,43                                                   ,
          •   For 2 years, require Subject 3 to submit to the AlGI assurances by a responsible official of
              his employer each time he sllbmits a proposal or report to NSF that the proposal or report
              does not contain plagiarized\ fabricated, or falsified material;44
          •   For a period of2 years, bar Subject 3 from serving as an NSF reviewer, advisor, or
              consultant. 45

                        The Subject 3's Response to OIG's Draft Investigation Report

            We provided Subject 3 with a draft investigation report for his review apd comments. He                                 \
     responded that he had "no comment or objection.,,46     .




     40 Had he not read the GPG at all, our conclusion remains the same in that it would be extremely reckless to submit
     a federal grant proposal for the first time without having read the instructions and guidance for doing so or seeking
     out assistance in preparing the Proposal.
     41 A Group I action, 45 C.F.R. 689.3(a)(l)(i).
     42 This action is not specified within the regulation. Sey 45 C.F.R. 689.3(a).1t is similar to Group I actions contained
     in 45 C.F.R. 689.3(a)(1).
     43 A Group I action 45 C.F.R. 689.3(a)(l)(iii).
     44 A Group I action 45 C.F.R. 689.3(a)(1)(iii).
     45 A Group I action 45 C.F.R. 689.3(a)(3)(ii).
     46 Tab Tab] 6.                      .


                                                                                                                           7
. .
~,)




                                            NATIONAL SCIENCE FOUNDATION
                                                      4201 WILSON BOULEVARD
                                                     ARLINGTON. VIRGINIA 22230



                                                            NOV 1 8 2011

               OFfiCE OF THE
                 DIRECTOR




         CERTIFIED MAIL --RETURN RECEIPT REQUESTED




                Re:     Notice of Research rMiscOIlduct Determination


        Dear_:
                 In 2009, you authored a1"\.....""',.",,,


                             On                                                 su             proposal
         to the National Science Foundation ("NSF" or                  As documented in the attached-
         Investigative Report prepared by NSF's Office of Inspector General ("DIG"), this proposal
      .' contained plagiarized material.

        Research Misconduct and Proposed Sanctions
                Unde~ NSF's regulations, "research misconduct" ~s defined as "fabrication, falsification,
        or plagiarism in proposing or perfqrming research funded by NSF ... " 45 CFR § 689.1(a). NSF
        defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
        without giving appropriate credit." 45 CFR § 689.1 (a)(3). A finding of research misconduct
        requires that:                                   '

               (1) There be a significant departure from accepted practices of the relevant research
                   community; and
               .(2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
               (3) The allegation be proven by a preponderance of evidence.

        45 CFR § 689.2(c).

                Your proposal contained verbatim and paraphrased text, as well as embedded references
        and a figure, copied from mUltiple source documents. By submitting a proposal to NSF that
        copied the ideas or words -of another without adequate attribution, as described in the OIG
        Investigative Report, you misrepresented someone else's work as your     own.  Your conduct
                                                                                              Page 2
unquestionably constitutes plagiarism. I therefore conclude that your actions meet the definition
of "research misconduct" set forth in NSF's regulations.

        Pursuant to NSF regulations, the Foundation must also determine whether to ~~ea
finding of misconduct based-on a preponderance of the evidence. 45 CFR § 689.2(c). After
reviewing the Investigative Report, NSF has determined that, based on a preponderance of the
evidence, your plagiarism was committed recklessly and constituted a significant departure from
accepted practices of the relevanfresearch community. I am, therefore, issuing a finding of ,
research misconduct against you.

         NSF's regulations establish three categories of actions (Group I, II, and III) that can be
taken in response to a finding of zpisconduct. 45 CFR § 689.3(a). Group I actions include
issuing a letter of reprimand; conditioning awards on prior approval of particular activities from
NSF; requiring that an institution or individual obtain special prior approval of particular
activities from NSF; and requiring that an institutional representative certify as to the accuracy of
reports or certifications of compliance with particular requirements. 45 CFR § 689.3(a)(1).
Group II actions include award suspension or restrictions on designated activities or
expenditures; requiring special reviews of requests for funding; and requiring correctiion to the
research record. 45 CFR § 689.3(a)(2). Group III actions include suspension or termination of
awards; prohibitions on participation as NSF reviewers, advisors or consultants; and debarment
or suspension from participation in NSF programs. 45 CFR § 689.3(a)(3).

       In determining the severity of the sanction to impose for research misconduct, I have
considered the seriousness of the misconduct, and our determination that it was committed
recklessly. I have also considered the fact that your misconduct was not part of a pattern of
misconduct, and had no impact on,the research record, as well as other relevant circumstances.
45 CFR § 689.3(b).                 '

       After assessing the relevant facts and circumstances of this case, I am taking the
following actions against you:

       (I) Until November 1,2013, you must provide certifications to the OIG that any proposal
           or report you submit to NSF as a PI or co-PI does not contain plagiarized, falsified, or
           fabricated material;

       (2) Until November 1,2013, you must provide assurances to the OIG from a responsible
           official of your employer that any proposal or report you submit to NSF as a PI or co-
           PI does not contain plagiarized, falsified, or fabricated material;

       (3) By November 1,2012, you must attend a training course on research ethics, including
           the proper attribution and presentation of quoted and paraphrased material, and ;>
           provide a certificate of attendance to the OIG that you have completed such a course;
           and
                                                                                            Page 3
        (4) Until November 1, 2013, you are prohibited from serving as a merit reviewer, advisor,
            or consultant for NSF.

       The certifications, assurances, and certificate of attendance should be submitted in writing
to OIG, Associate Inspector General for Investigations, 4201 Wilson Boulevard, Arlington,
Virginia 22230.                  .


Procedures Governing Appeals
        Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
of this decision, in writing, to the Director of the Foundation. 45 CFR § 689.1O(a). Any appeal
should be addressed to the Directbr at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. Ifwe do not receive your appeal within the 30-day period, this
decision will become final.

       For your infonnation, we are attaching a       of the applicable regulations. If you have
any questions about the foregoing~ please                   Assistant General Counsel, at (703)
292-5054.



                                                    Sincerely,




                                                    Wanda Ward
                                                    Senior Advisor to the Director




Enclosures
- Investigative Report
   45 C.F.R. Part 689
